Report No. DODIG-2013-071                   April 26, 2013




      The Audit Opinion of the DISA FY 2011 Working
        Capital Fund Financial Statements Was Not
                  Adequately Supported
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector General
website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports Distribution
Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
Acuity                        Acuity Consulting, Inc.
AICPA                         American Institute of Certified Public Accountants
CMR                           Cash Management Report
COR                           Contracting Officer’s Representative
CSD                           Computing Services Directorate
DISA                          Defense Information Systems Agency
DPAS                          Defense Property Accountability System
FAM                           Financial Audit Manual
FBWT                          Fund Balance with Treasury
GAGAS                         Generally Accepted Government Auditing Standards
GAO/PCIE                      Government Accountability Office/President’s Council on
                              Integrity and Efficiency
MD&A                          Management Discussion and Analysis
MFR                           Memorandum for Record
NoF                           Notification of Finding
OIG                           Office of Inspector General
PLD                           Procurement and Logistics Directorate
PP&E                          Property, Plant, & Equipment
TSEAS                         Telecommunication Services Enterprise Acquisition Services
WCF                           Working Capital Fund
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                           April 26, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE INFORMATION SYSTEMS
                AGENCY
               CHIEF FINANCIAL EXECUTIVE, DEFENSE
                INFORMATION SYSTEMS AGENCY
               MANAGING PARTNER, ACUITY CONSULTING

SUBJECT: The Audit Opinion of the DJSA FY 2011 Working Capital Fund Financial
         Statements Was Not Adequately Supported
         (Rep01t No. DODJG-2013-071)

We are providing this report for review and comment. Acuity's auditing procedures on
the DISA FY 2011 Working Capital Fund Financial Statements were inadequate. In
addition, the Director, Procurement and Logistics Directorate prohibited the COR from
completing key duties required to provide oversight of Acuity' s work. As a result,
Acuity did not have sufficient evidence to issue an unqualified opinion on the DJSA FY
2011 Working Capital Fund Financial Statements.

We considered management comments on a draft of this report when preparing the final
repott. DoD Directive 7650.3 requires that recommendations be resolved
promptly. Comments from the Vice Director, DISA were generally responsive; however,
comments on Recommendation I .a and Recommendation I.e were only partially
responsive. The Managing Partner, Acuity also provided comments that were generally
responsive; however, comments on Recommendation 2.b were nonresponsive.
Therefore, we request additional comments on these recommendations by May 28, 2013.

If possible, send a .pdf file containing your comments to audfmr@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SJPRNET).

We appreciate the comtesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).




                                             ~ C\.J"'\\
                                             Richard B. Vasquez, CPA
                                             Acting Assistant Inspector General
                                             Financial Management and Reporting
Report No. DODIG-2013-071 (Project No. D2012-D000FH-0122.000)            April 26, 2013

               Results in Brief: The Audit Opinion of the
               DISA FY 2011 Working Capital Fund Financial
               Statements Was Not Adequately Supported
What We Did                                              As a result, Acuity did not have sufficient
                                                         evidence to issue an unqualified opinion on
We determined the adequacy of Acuity
                                                         DISA’s FY 2011 WCF Financial Statements.
Consulting’s (Acuity) auditing procedures for
                                                         Furthermore, the DoD does not have assurance
the Defense Information Systems Agency
                                                         that the DISA FY 2011 WCF Financial
(DISA) FY 2011 Working Capital Fund (WCF)
                                                         Statements are free of material misstatements.
Financial Statements. We also determined
whether the contract oversight was sufficient.
                                                         What We Recommend
What We Found                                            The Director, DISA should review the actions of
                                                         the Director, PLD; ensure that individuals
Acuity’s auditing procedures on the DISA
                                                         performing contract oversight of financial
FY 2011 WCF Financial Statements were
                                                         statement audits are qualified DISA employees;
inadequate. Specifically, Acuity did not:
                                                         and seek a refund from Acuity.
   •   properly test the DISA Fund Balance               The Managing Partner, Acuity should withdraw
       with Treasury (FBWT) reconciliations,             their opinion and review the planned work on
   •   determine whether the undistributed               future audits to gather sufficient evidence to
       accounts were free of material                    support their opinion.
       misstatements,
   •   adequately assess whether the                     Management Comments and
       deficiencies identified by DISA in its
       FBWT memorandums for record would                 Our Response
       have a material impact on the financial           The Vice Director, DISA, responded for the
       statements and Acuity’s opinion,                  Director, stating agreement with the
   •   perform adequate testing on Property,             recommendations to review the actions of the
       Plant, and Equipment, and                         Director, PLD and ensure that the individuals
   •   state in its auditor’s report that the DISA       performing contract oversight of financial
       financial statement disclosures were              statement audits are qualified DISA employees.
       inadequate.                                       We request additional comments from the
                                                         Director, DISA on Recommendations 1a and 1c.
This occurred because Acuity did not perform
the audit in accordance with GAGAS, the FAM,             The Managing Partner, Acuity responded stating
and the AICPA standards. In addition, the                disagreement with the recommendation to
contract oversight was not sufficient because the        withdraw their unqualified opinion. We request
Director, Procurement and Logistics Directorate          reconsideration from the Managing Partner,
(PLD) prohibited the contracting officer’s               Acuity on Recommendation 2a. We request
representative (COR) from completing key                 additional comments from the Managing
duties required to provide oversight of Acuity’s         Partner, Acuity on Recommendation 2b. Please
work.                                                    see the recommendation table on the back of
                                                         this page.

                                                     i
Report No. DODIG-2013-071 (Project No. D2012-D000FH-0122.000)    April 26, 2013

Recommendations Table

         Management                  Recommendations        No Additional Comments
                                    Requiring Comment             Required
Director, DISA                  1.a, 1.c                   1.b

Managing Partner, Acuity        2.b                        2.a


Please provide comments by May 28, 2013.




                                           ii
Table of Contents

Introduction                                                                 1

      Objectives                                                             1
      Post Audit Review Background                                           1
      Review of Internal Controls                                            4

Finding. Acuity’s Auditing Procedures to Support Its Opinion on
the DISA FY 2011 Working Capital Fund Financial Statements Were
Not Effective                                                                5

      Acuity Did Not Perform Sufficient Audit Procedures to Support
             Its Audit Opinion                                               5
      Acuity’s Procedures for Auditing the DISA FBWT Account Were
             Inadequate                                                      6
      Acuity’s Reliance on DISA Management                                  10
      Auditing Procedures of the General Property, Plant, and Equipment
             Line Item Could be Improved                                    11
      The Contracting Officer’s Representative Was Unable to Complete Key
             Duties to Provide Oversight                                    15
      Conclusion                                                            17
      Recommendations, Management Comments, and Our Response                18

Appendices

      A. Scope and Methodology                                              22
            Use of Computer Processed Data                                  22
            Use of Technical Assistance                                     22
            Prior Coverage                                                  23
      B. Acuity’s Comments on the Finding and Our Response                  24

Management Comments

      Defense Information Systems Agency                                    42
      Acuity Consulting, Inc.                                               45
Introduction
Objectives
The objective was to determine the adequacy of the Independent Public Accountant’s
auditing procedures for the Defense Information Systems Agency (DISA) FY 2011
Working Capital Fund (WCF) Financial Statements. We also determined whether the
contract oversight performed was sufficient.

Post Audit Review Background
On June 13, 2006, the DoD Office of Inspector General (OIG) issued a policy
memorandum instructing all Other Defense Organizations to execute contracts with
independent public accounting firms for the audit of financial statements through the
Inspector’s General Chief Financial Officer Multiple Award Contract. The purpose of
the policy was to ensure that the DoD OIG would maintain oversight of the financial
statement audits of Other Defense Organizations. In addition, the memorandum states
that ongoing monitoring would enable the DoD OIG to determine whether it could rely
upon the Independent Public Accountants’ work for the OIG to express an opinion on the
Agency-Wide financial statements. On July 20, 2010, the DoD OIG issued a policy
memorandum related to the DoD OIG oversight of the financial statement audits for the
DoD. This memorandum established that the DoD OIG will conduct post audit reviews
on a sample of the DoD entities financial statement audits for which we do not provide
oversight.

DISA awarded a sole source contract to Acuity Consulting (Acuity) on September 30,
2010 to determine if the DISA FY 2011 WCF Balance Sheet, Statement of Net Cost,
Statement of Changes in Net Position, and Statement of Budgetary Resources present
fairly in all material respects and conformity with the accounting principles generally
accepted in the United States of America. The contract required Acuity to conduct the
audit in accordance with Generally Accepted Accounting Principles and standards
applicable to financial audits contained in the Generally Accepted Government Auditing
Standards (GAGAS) issued by the Comptroller General of the United States. Although
DISA is a not an Office of Management and Budget reporting entity, in 2011, DISA
chose to pursue an audit of its financial statements as a means to ensure the adequacy of
its controls, processes, and to evaluate the accuracy of its financial reporting, as directed
by the Under Secretary of Defense, Comptroller.

Defense Information Systems Agency Mission
DISA is a combat support agency comprised of 16,000 people, including military,
civilian, and contractor partners. The DISA WCF reporting entity is comprised of two
revolving funds which support the Computing Services Directorate (CSD) and the
Telecommunications Services and Enterprise Acquisition Services (TSEAS) Directorate.
The CSD provides computing services to DoD, and TSEAS provides communication
services and contracting services to customers within DoD and across the federal
government. DISA facilitates the use of real-time intelligence, surveillance, and


                                              1
reconnaissance information to enable information exchange between the producer and the
shooter. DISA works with its mission partners to provide technology and seamless
exchange of information so that anyone who can connect to the network can provide and
consume data and services anywhere on the network globally.

DISA provides command and control capabilities and enterprise infrastructure to
continuously operate and assure a global net-centric enterprise in direct support to joint
warfighters, national level leaders, and other mission and coalition partners across the full
spectrum of operations.

Financial Statement Assertions
Financial statement assertions are management representations that are embodied in
financial statement components. Most of the auditor's work in forming an opinion on
financial statements consists of obtaining and evaluating sufficient appropriate evidence
concerning the assertions in the financial statements. The assertions can be explicit or
implicit. The FAM 1 section 235 classifies assertions into the following five broad
categories:

    •    Existence or occurrence—recorded transactions and events occurred during the
         given period, are properly classified, and pertain to the entity. An entity’s assets,
         liabilities, and net position exist at a given date.
    •    Completeness—all transactions and events that should have been recorded are
         recorded in the proper period. All assets, liabilities, and net position that should
         have been recorded have been recorded in the proper period and properly included
         in the financial statements.
    •    Rights and obligations—the entity holds or controls the rights to assets, and
         liabilities are the obligations of the entity at a given date.
    •    Accuracy/valuation or allocation—amounts and other data relating to recorded
         transactions and events have been recorded appropriately. Assets, liabilities, and
         net position are included in the financial statements at appropriate amounts, and
         any resulting valuation or allocation adjustments are properly recorded. Financial
         and other information is disclosed fairly and at appropriate amounts.
    •    Presentation and disclosure—the financial and other information in the financial
         statements is appropriately presented and described and disclosures are clearly
         expressed. All disclosures that should have been included in the financial
         statements have been included. Disclosed events and transactions have occurred
         and pertain to the entity.




1
  The Financial Audit Manual (FAM) presents a methodology to perform financial statement audits of
federal entities in accordance with professional standards established by the American Institute of Certified
Public Accountants (AICPA), GAGAS, Office of Management and Budget and the Federal Accounting
Standards Advisory Board (FASAB).




                                                      2
Fund Balance with Treasury
The Fund Balance with Treasury (FBWT) account (U.S. Standard General Ledger
account 1010) is an asset account unique to the U.S. government that represents
unexpended spending authority. Entities record their budget spending authority in FBWT
accounts with an offsetting amount to unexpended appropriations—U.S. Standard
General Ledger account series 3100. Similar to cash in commercial bank accounts,
FBWT amounts increase as funds are collected and decrease as amounts are paid. Most
entities have several FBWT accounts funded by different types of appropriations that are
included in the financial statement FBWT account.

As of September 30, 2011, the DISA WCF balance in the Defense WCF cash account
was $251.9 million. Because WCF funds do not expire, the $251.9 million ending
balance in the DISA FBWT account consisted of the following disbursement and
collection amounts from the inception of the appropriations 2:

    •   $11.76 billion in disbursement and $11.88 billion in collection transactions
        processed through the CSD WCF account, and
    •   $52.44 billion in disbursement and $52.59 billion in collection transactions
        processed through the TSEAS WCF account.

The accuracy of several entity financial statements, including the Balance Sheet, the
Statement of Net Cost, and the Statement of Budgetary Resources are impacted by the
FBWT account. Therefore, any material deficiencies in the FBWT account would have a
significant impact on the reliability of the DISA financial statements.

Property, Plant, and Equipment
The DoD requires that all assets acquired by Other Defense Organizations be recognized
for accountability and financial reporting purposes. Recognition requires the proper
accounting treatment, such as the reporting of capitalized amounts and depreciation on
the appropriate DoD Component’s financial statements. General Property, Plant, and
Equipment (PP&E), consists of tangible assets that meet all of the following criteria: (1)
have an estimated useful life of 2 years or more; (2) are not intended for sale in the
ordinary course of business; (3) are acquired or constructed with the intention of being
used or available for use by the entity; and (4) have an initial acquisition cost, book value,
or when applicable, an estimated fair market value that equals or exceeds the DoD
capitalization threshold. The DoD capitalization threshold is $100,000 with the
exception of real-property assets. When recording the acquisition cost of the asset in the
property accountability system of record and the accounting system, the asset should be




2
 The $251.9 million ending balance also included $13.27 million in original funding and a $31.85 million
adjustment to the TSEAS account.




                                                    3
assigned a dollar value and that dollar value should be supported by appropriate
documentation.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified one internal
control weakness for the delegation of contract administration responsibilities at DISA.
Specifically, the Director, Procurement and Logistics Directorate prohibited the
contracting officer’s representative from completing key duties required to provide
oversight of Acuity’s work to assure the DoD that the work performed satisfied the
Generally Accepted Government Auditing Standards. We will provide a copy of the
report to the senior official in charge of internal controls at DISA.




                                            4
Finding. Acuity’s Auditing Procedures to
Support Its Opinion on the DISA FY 2011
Working Capital Fund Financial Statements
Were Not Effective
Acuity Consulting (Acuity) auditing procedures on the Defense Information Systems
Agency’s (DISA) FY 2011 Working Capital Fund (WCF) Financial Statements were
inadequate. Specifically, Acuity did not:

   •   properly perform testing on the DISA FBWT reconciliations,
   •   determine whether the undistributed accounts were free of material misstatements,
   •   adequately assess whether the deficiencies identified by DISA in its FBWT
       memorandums for record (MFRs) would have a material impact on the financial
       statements and ultimately Acuity’s opinion,
   •   perform adequate completeness testing of the TSEAS Property, Plant, and
       Equipment (PP&E) line item, and
   •   state in its auditor’s report that the DISA financial statement footnote disclosures
       were inadequate because they did not discuss DISA’s grouped asset cost
       activation and depreciation method.

This occurred because Acuity did not perform the audit in accordance with Generally
Accepted Government Auditing Standards (GAGAS), the Financial Audit Manual
(FAM), and the American Institute of Certified Public Accountant (AICPA) standards.
Specifically, Acuity relied on DISA management representations without performing
independent tests and validations. In addition, the contracting oversight was not
sufficient because the Director, Procurement and Logistics Directorate prohibited the
contracting officer’s representative (COR) from completing key duties required to
provide oversight of Acuity’s work.

As a result, Acuity did not have sufficient evidence to issue an unqualified opinion on the
DISA FY 2011 WCF Financial Statements.                     Acuity did not have sufficient
Furthermore, without performing procedures that           evidence to issue an unqualified
ensure compliance with GAGAS, FAM, and                     opinion on the DISA FY 2011
AICPA standards, the DoD does not have                      WCF Financial Statements.
assurance that the DISA FY 2011 Financial
Statements are free of material misstatements.

Acuity Did Not Perform Sufficient Audit Procedures to
Support Its Audit Opinion
On September 30, 2010, DISA awarded Acuity a contract to audit the DISA FY 2011
WCF Financial Statements. The contract required Acuity to conduct the audit in
accordance with GAGAS, FAM, and AICPA standards. The contract also required
Acuity to express an opinion as to whether DISA fairly presented its financial statements.
However, Acuity did not perform key audit procedures to support the audit opinion on


                                             5
the DISA FY 2011 WCF Financial Statements. Specifically, Acuity’s procedures used to
test the DISA FBWT account and PP&E line item were inadequate.

Acuity’s Procedures for Auditing the DISA FBWT
Account Were Inadequate
Acuity did not perform adequate auditing procedures on the FBWT account.
Specifically, Acuity did not:

   •    perform adequate auditing procedures on the DISA FBWT reconciliations,
   •    determine whether the undistributed accounts were free of material misstatement,
        and
   •    adequately assess how the deficiencies identified by DISA in its FBWT MFRs
        would impact the reliability of the financial statements and ultimately Acuity’s
        opinion.

Acuity Did Not Properly Test the DISA FBWT Reconciliations
Acuity’s procedures for auditing the DISA FBWT reconciliations were inadequate.
According to DoD OIG Report No. DODIG-2012-107 the reconciliation of the FBWT
account is a key internal control process to identify unauthorized and improperly
recorded transactions. However, DISA is included in U.S. Treasury Index 97, an
aggregate account that does not identify the separate Other Defense Organizations
sharing the U.S. Treasury account. As a result,
DISA must reconcile its FBWT account to the               The reconciliation of the FBWT
 Cash Management Report (CMR) created by the              account is a key internal control
Defense Finance and Accounting Service (DFAS)             process to identify unauthorized
Indianapolis, instead of reconciling directly to the         and improperly recorded
U.S. Treasury. The CMR is similar to an account                     transactions.
summary that a commercial bank reports on a
customer’s individual monthly bank statement. However, unlike a monthly bank
statement, the CMR does not contain a list of the individual transactions charged to the
account during the month. Instead, the CMR reports only the summary amounts for each
appropriation. Therefore, the Other Defense Organizations must perform alternate
procedures when reconciling their FBWT accounts. A proper Other Defense
Organization FBWT reconciliation would require that DISA:

    •   retrieve the disbursement and collection transactions processed by the disbursing
        offices to support the summary amounts on the CMR,
    •   reconcile the detail disbursements and collections supporting the CMR to the
        detail disbursements and collections reported in the accounting systems, and
    •   research, and if necessary, resolve any variances between the transactions
        supporting the CMR and the transactions in the accounting system.


However, Acuity obtained only the detailed transactions recorded in the accounting
system. Acuity then summed the transactions in the accounting system and compared


                                             6
that summary amount to the summary amount supporting the CMR. FAM section 350
states that the auditor should use a combination of audit procedures to obtain sufficient,
appropriate audit evidence regarding the operating effectiveness of controls. Acuity
acknowledged that re-performing the FBWT reconciliations, identifying reconciling
items, and obtaining explanations for the reconciling items were necessary procedures
that they should have performed when testing the DISA FBWT reconciliations.
However, to re-perform the FBWT reconciliations, Acuity would need to obtain both the
detailed transactions supporting the CMR and the detailed transactions reported in the
accounting system. Without reconciling the detailed transactions supporting the CMR to
the detailed transactions in the accounting system, Acuity could not have re-performed
and tested the DISA FBWT reconciliations at the detailed transaction level to ensure:

   •   controls over the FBWT account were effective,
   •   adjustments to the financial statements were supported, and
   •   the universe of disbursements and collections sampled by Acuity was complete.

After we brought this to the attention of Acuity senior management, Acuity later stated
that it ensured the detailed transactions supporting the CMR equaled summary values
reported on the CMR. Documentation provided by Acuity shows that the auditors then
compared the summary amount supporting the CMR to the summary amount in the
accounting system. However, a proper re-performance of the DISA FBWT
reconciliations would require that Acuity reconcile the disbursements and collections
supporting the CMR to the disbursements and collections reported in the accounting
system at the detail transaction level. Therefore, the procedures Acuity stated it
                                       performed still would not represent adequate
   The procedures Acuity stated        auditing procedures over the DISA FBWT
    it performed still would not       reconciliations. A transaction level FBWT
    represent adequate auditing        reconciliation will identify the transactions that have
     procedures over the DISA          been disbursed or collected by the U.S. Treasury and
       FBWT reconciliations.           subsequently reported on the CMR, but have not yet
                                       been reported in the accounting system. By only
performing a summary level reconciliation of the FBWT account and then only testing
transactions recorded in the accounting system, the FBWT universe that Acuity sampled
did not include any of the transactions that make up the $31.9 million difference between
the amount reported on the CMR and amount reported in the accounting system.

Acuity also acknowledged that it did not include the validation of the CMR in its audit
documentation, which would have required them to obtain and document all of the
detailed transactions supporting the summary amounts on the CMR. GAGAS, paragraph
4.19, states that audit documentation for financial audits performed in accordance with
government auditing standards should contain sufficient information to enable an
experienced auditor who has had no previous connection with the audit to ascertain from
the audit documentation the evidence that supports the auditors’ significant judgments
and conclusions.




                                              7
Acuity Did Not Determine Whether the Undistributed Accounts
Were Free of Material Misstatements
Acuity did not determine whether the TSEAS and CSD “Undistributed Disbursements”
accounts 3 were free of material misstatements. Acuity determined that the balances in
the TSEAS undistributed account, totaling $15.3 million and the CSD undistributed
account, totaling $929,000, were both above the allocated materiality 4 threshold for the
FBWT account. However, Acuity did not adequately follow-up on these identified
deficiencies.

During the audit of the DISA FY 2011 WCF Financial Statements, Acuity issued a
Notification of Finding (NoF) to DISA, which stated that DISA:

    •   was unable to identify, explain, or clear specific transactions remaining in the
        pool of transactions categorized as timing differences,
    •   did not consistently reconcile the undistributed disbursement account to identify
        and clear aged undistributed amounts, and
    •   did not segregate the unsupported undistributed amounts from the supported
        undistributed amounts on the journal entry.

Additionally, the NoF stated that DISA management’s inability to effectively monitor
transactions in the undistributed disbursement account could lead to undetected
accounting record errors and material misstatements to the financial statements.
However, Acuity did not perform any additional
work on the identified issue.                               DISA management’s inability to
AICPA AU Section 312, “Audit Risk and                      effectively monitor transactions in
Materiality in Conducting an Audit,” states that the         the undistributed disbursement
auditor should document the auditor’s conclusion            account could lead to undetected
as to whether uncorrected misstatements,                      accounting record errors and
individually or in aggregate, do or do not cause the             material misstatements
financial statements to be materially misstated, and
the basis for that conclusion. Additionally,
FAM section 1003 states that the auditor should consider the status of all known
significant findings and recommendations, including whether any failure to correct
previously identified deficiencies in internal controls is a significant deficiency or



3
  Undistributed accounts are intended to reduce accounts payable by the disbursements that have been
posted to the U.S. Treasury, but not yet posted in the accounting system.
4
  AICPA AU Section 320 requires the auditor to apply the concept of materiality appropriately in planning
and performing the audit. Materiality, which is determined by the auditor based on professional judgment,
is applied in evaluating the effect of identified misstatements on the audit and the effect of uncorrected
misstatements, if any, on the financial statements. Misstatements are considered to be material if they,
individually or in the aggregate, could reasonably be expected to influence the economic decisions of users
made on the basis of the financial statements.




                                                     8
material weakness. Without following up on the material unresolved differences
identified in the undistributed accounts, Acuity
had no assurance that material misstatements             Acuity acknowledged it did not
did not exist in the FBWT account when it                follow up on the activity in the
issued an unqualified opinion on the DISA FY          undistributed accounts and did not
2011 WCF Financial Statements.                            ensure the deficiencies were
AICPA AU Section 339, Audit Documentation,                  factored into its opinion.
states that the auditor should document
significant findings or issues, actions taken to address them (including any additional
evidence obtained), and the basis for the final conclusions reached. However, Acuity
acknowledged it did not follow up on the activity in the undistributed accounts and did
not ensure the deficiencies were factored into its opinion on the financial statements.
Furthermore, Acuity recognized that its audit documentation did not explicitly discuss the
risk, materiality, and impact on the financial statements.

Acuity Did Not Address Material Audit Trail Deficiencies
Acuity did not adequately assess whether the deficiencies identified by DISA in its
FBWT MFRs would have a material impact on the financial statements and ultimately
Acuity’s opinion. DISA developed the MFRs in April 2010 to address prior year
deficiencies related to CSD and TSEAS FBWT balances. DISA stated in the MFRs they
purged $7.8 billion in detailed transactions from the accounting system and performed
approximately $379 million in unsupported adjustments. Specifically, DISA stated that:

   •   for CSD, they imported $5.2 billion into the Financial Accounting Management
       Information System in FY 2003 based on budgetary execution reports, rather than
       transaction detail, and prepared a $186.9 million adjustment to “rebuild” the
       general ledger FBWT balance,
   •   for TSEAS, they purged $2.6 billion in disbursements and collections when
       switching to the Financial Accounting Management Information System, and
       prepared two adjustments to “rebuild” the general ledger FBWT balance in the
       amounts of $97.9 million and $94 million.

DoD 7000.14-R, “Financial Management Regulation” Volume 6A, Chapter 2 requires
DoD components to maintain audit trails in sufficient detail to permit tracing of
transactions and balances from its sources to amounts reported in its systems. Audit trails
are necessary to demonstrate the accuracy, completeness, and timeliness of a transaction.
Additionally, the DoD Financial Management Regulation Volume 4, Chapter 2 states that
documentation must be available to auditors and management to provide an audit trail
and support accomplished reconciliations and resulting adjustments. However, DISA did
not have audit trails to support over $7.8 billion in detailed transactions and
approximately $379 million in unsupported adjustments to its accounting records.
Without the detailed transactions to support these amounts, Acuity could not have fully
tested the FBWT account for existence, completeness, and accuracy. Additionally,
unlike appropriated funds, WCF funds do not ever expire. Therefore, these deficiencies
will remain as long as the accounts exist.



                                            9
DISA did not disclose any of the deficiencies reported in its MFRs in the notes to the
financial statements. In addition, Acuity did not identify that the footnotes lacked the
information needed for fair presentation and disclosure. FAM section 921 states that the
auditor should determine whether the entity has presented the financial statements and
footnote disclosures for the FBWT account in accordance with U.S. Generally Accepted
Accounting Principles. Specifically, FAM section 921 states that the auditor should
assess whether the entity disclosed and explained:

   •    material unreconciled differences in the notes to the financial statements, and
   •    material unreconciled differences that were written off by the entity during the
        fiscal year in the notes to the financial statements.

Acuity acknowledged that it should have included a
paragraph in the audit opinion that alerted the reader            Acuity stated that the
to the problems documented in the MFRs and that it           deficiencies should have been
would consider the impact of the deficiencies on the            reported in the financial
overall audit opinion. Additionally, Acuity stated that     statement note disclosures and
the deficiencies should have been reported in the             additional disclosures were
financial statement note disclosures and additional               under consideration.
disclosures were under consideration. Finally, Acuity
stated that one of the reasons it was willing to render an unqualified opinion on the
financial statements with the audit trail issues was because DISA had implemented
sustainable procedures and controls to accurately record, trace, and reconcile the FBWT
account. However, as previously stated, Acuity did not perform adequate procedures on
the FBWT reconciliations to determine if controls over the FBWT account were
effective.

Acuity also recognized that its audit documentation did not explicitly discuss the risk,
materiality, and impact of the MFRs on the financial statements. GAGAS, paragraph
4.19, states that audit documentation for financial audits performed in accordance with
government auditing standards should contain sufficient information to enable an
experienced auditor who has had no previous connection with the audit to ascertain from
the audit documentation the evidence that supports the auditors’ significant judgments
and conclusions.

Acuity’s Reliance on DISA Management
Acuity relied on representations by DISA management and did not independently
validate the representations made by DISA. Specifically, Acuity:

    •   performed only summary reconciliations of the FBWT account and did not
        adequately test to ensure DISA was performing regular and recurring FBWT
        reconciliations at the detailed level,
    •   accepted a response from DISA regarding the deficiencies in the undistributed
        accounts, but did not perform any follow up work on the account to ensure the
        undistributed accounts could be supported, and



                                            10
     •   accepted the deficiencies DISA reported in the MFRs without performing
         adequate auditing procedures to determine if the deficiencies would have a
         material impact on the FBWT account.

GAGAS paragraph 4.03 requires an auditor to gain a sufficient understanding of internal
controls to plan the audit and obtain sufficient appropriate audit evidence to render an
opinion on the financial statements. Furthermore, FAM section 1001, “Management
Representations” states that management representations are not a substitute for obtaining
other audit evidence.

Auditing Procedures of the General Property, Plant, and
Equipment Line Item Could be Improved
Acuity did not perform procedures to determine whether the PP&E line item in the DISA
FY 2011 WCF Financial Statements was free of material misstatements. Specifically,
Acuity did not:

    •    perform adequate completeness testing of the TSEAS PP&E line item, and
    •    state in its auditor’s report that the DISA financial statement footnote disclosures
         were inadequate because they did not discuss DISA’s grouped asset cost
         activation and depreciation method.

Completeness Testing of Property Plant and Equipment
Acuity did not perform adequate testing of the TSEAS Network PP&E to verify DISA
compliance with the completeness assertion. Specifically, Acuity did not perform
(floor to book) 5 tests to verify the completeness of
DISA’s property accountability system. The Defense          Acuity did not perform (floor
Property Accountability System (DPAS) is the                  to book) tests to verify the
system of record used by DISA to record PP&E.                  completeness of DISA’s
Accounting information in DPAS is automatically                property accountability
interfaced with and transmitted to DoD accounting                       system.
systems. FAM section 1003 suggests, in order to
verify completeness, the auditor should test transactions in the accounts payable ledger
against supporting property records to determine whether all items that should have been
recorded were recorded. Instead, to verify completeness, Acuity acknowledged it could
not rely on DPAS, so it performed alternate procedures to reduce its risk with respect to
the DISA completeness assertion. However, we determined that the conclusions of those
alternative procedures were not adequately supported.




5
  The floor to book test is a method of verifying completeness of the accounting and property records
through physical matching of an asset to its corresponding entry in the property system of record.




                                                    11
For example, Acuity provided its asset valuation testing as an alternative procedure. The
testing required the auditor to determine whether the acquisition cost of the asset was
supported and verified by reviewing the asset funding and acquisition documents. Acuity
selected 6 high-dollar value assets valued at $37.7 million out of 31 TSEAS assets valued
at $49.3 million in the PP&E 1790 and 1791 general ledger account balances. Of the six
assets tested, the auditor found no discrepancies with the samples, but provided no
supporting documentation to show how the auditor reached its conclusions. The FAM
section 290 states that the auditor should prepare audit documentation in sufficient detail
to provide a clear understanding of the work performed, the audit evidence obtained and
its source and the conclusions reached. Additionally, GAGAS, paragraph 4.19, states
audit documentation for financial audits performed in accordance with government
auditing standards should contain sufficient information to enable an experienced auditor
who has had no previous connection with the audit to ascertain from the audit
documentation the evidence that supports the auditors’ significant judgments and
conclusions. In its workpapers, Acuity auditors noted that DISA tried repeatedly to
obtain 1080 bills from the Business Transformation Agency, but were unsuccessful.
1080 bills are a standard form which constitutes           Since Acuity did not include
an official request to pay for services delivered          sufficient documentation to
that present only summary data on charges to the       support the results of its analysis,
agency. Since Acuity did not include sufficient          it did not support its use of the
documentation to support the results of its                 alternative procedures for
analysis, it did not support its use of the                    completeness testing.
alternative procedures for completeness testing.
Therefore, the alternate procedures were inadequate to support its opinion on the
completeness assertion as it relates to TSEAS PP&E.

Acuity Did Not State that the DISA Financial Statement Footnote
Disclosures Were Inadequate in Its Auditor’s Report
Acuity did not state in its auditor’s report that the DISA financial statement footnote
disclosures were inadequate because it did not discuss DISA’s:

   •   Grouped Asset Cost Method, and
   •   Grouped Asset Activation and Depreciation Method.

Specifically, GAGAS chapter 5.03(c) states that when the auditor determines that
informative disclosures are not reasonably adequate, the auditor must state so in the auditor’s
report. The DISA grouped asset methods deviated from the standards authorized under
the DoD FMR. These deviations were required to be disclosed in the notes to the




                                              12
financial statements or the management discussion and analysis (MD&A) 6 section of the
financial statements. Acuity was aware of the methods, and aware that DISA did not
include the disclosures in the financial statements or the MD&A, but made no mention of
the inadequate disclosures in its auditor’s report.

DISA Did Not Disclose Grouped Asset Cost Method
During the review of FY 2011 beginning balances, Acuity issued a NOF discussing the
DISA grouped asset cost method. Acuity stated that the NOF was caused from DISA
using a grouped asset costs approach rather than the individual cost approach to identify
and value assets. The DoD FMR volume 4, chapter 6 states entries to record PP&E must
include sufficient information including physical quantity, location, and unit cost of the
PP&E to enable periodic independent verification of the accuracy of the property
                                         accountability records. Acuity stated that DISA
   Acuity determined the effect of       records grouped assets with descriptions such as
   the grouped asset cost method         “Additional Costs” or “Systems” making it difficult
   increased the likelihood that a       to identify, observe, or verify the individual
    material misstatement would          physical asset. Acuity determined that the effect of
    not be prevented or detected.        the grouped asset cost method increased the
                                         likelihood that a material misstatement would not
be prevented or detected. DISA provided a response to the NOF that acknowledged the
challenges with the method and stated they designed a new business processes to support
a more sustainable approach while making the process more effective for review.
However, DISA did not state the problem or the action taken in the MD&A section of the
report or in the notes to the financial statements.

DISA Did Not Disclose Grouped Asset Activation and
Depreciation Method in its Financial Statements
The DISA grouped asset activation and depreciation method deviated from the standards
in the DoD FMR. DISA based the grouped asset activation and depreciation
methodology primarily from the standards in the Statement of Federal Financial
Accounting Standards No. 6 and more specifically from the
DoD FMR volume 4, chapter 6. Statement of Federal Financial Accounting Standards
No. 6 states that various methods can be used to compute periodic depreciation expense
as long as the method is systematic, rational and best reflects the use of PP&E. This
standard also states that a composite or group depreciation methodology is permissible
where cost of PP&E is depreciated using the same rate. More specifically, the DoD
FMR, volume 4, chapter 6 states that the recorded cost of PP&E assets shall be the




6
  Each federal financial report includes an MD&A section that addresses the reporting entity's program and
financial performance measures, financial statements, systems and controls, compliance with laws and
regulations, and actions taken or planned to address problems.




                                                   13
purchase contract cost plus ancillary costs. 7 The DISA recorded costs of assets are
actually component individual assets grouped together that may have been received over
the course of a year or more.

The DoD FMR states that to begin depreciating assets, assuming the assets have the same
recovery period; the event that triggers the calculation of depreciation is the date of
receipt or the date installed and placed in service. The DISA method deviates from the
DoD FMR policy because the DISA grouped assets are composed of assets having
different recovery periods. For example, the Defense Information System Network is
composed of computer equipment and network cables. The DoD FMR classifies
computers and peripherals into a 5-year recovery period and fiber optic cable into a
20-year recovery period. Consequently, the DISA method of grouping assets with long
and short recovery periods together increases the
likelihood that useable equipment would be               DISA did not disclose any of the
replaced earlier than necessary. Additionally,             issues with the grouped asset
because certain components of a network may be           cost activation and depreciation
received over the course of a year or more without             method in its financial
being activated, the assets waiting to be grouped                   statements.
together and placed in service could potentially be
fully depreciated by the time the network is actually activated.

Lastly, the DoD FMR specifies two methods for depreciation commencement—the
Month Available for Service Method or the Mid-Year Convention Method. However,
DISA starts asset depreciation in September of the year the grouped asset is activated.
This method deviates from the standards set forth for depreciation commencement in the
DoD FMR. However, DISA did not disclose any of the issues with the grouped asset
cost activation and depreciation method in its financial statements.

Acuity’s Audit Report Did Not State that the DISA Informative
Disclosures Were Inadequate
Acuity did not comply with GAGAS because it did not state in the auditor’s report that the
DISA informative disclosures were inadequate. The DISA grouped asset cost method and
the activation and depreciation method are not in accordance with accounting policy for
PP&E in the DoD FMR. Statements on Auditing Standards No. 1, section 420,
Consistency of Application of Generally Accepted Accounting Principles, states that
changes in accounting standards that have a material effect on the financial statements
may require disclosure in a note to the financial statements. Additionally the Office of
Management and Budget A-136, Financial Reporting Requirements
(Revised September 29, 2010), states that management should discuss important




7
 Examples of ancillary costs include the following: engineering, architectural, and other outside services
for designs, plans, specifications, and surveys.




                                                    14
problems that need to be addressed and actions that have been planned or taken to
address those problems in the MD&A section of the statement. However, DISA did not
provide informative disclosure of the grouped asset methodologies in either the notes or
the MD&A section of the financial statements. Additionally, GAGAS chapter 5.03(c)
states that when the auditor determines that the financial statement footnote disclosures are
not reasonably adequate; the auditor must state so in the auditor’s report.

In FY 2012, Acuity expressed concerns about the depreciation methodology to DISA.
DISA sought an opinion on the matter from the Federal Accounting Standards Advisory
Board through the Office of the Under Secretary of Defense (Comptroller). As of the
date of our post-audit review, the matter was unresolved.

The Contracting Officer’s Representative Was Unable to
Complete Key Duties to Provide Oversight
The COR was prohibited from completing key duties required to provide oversight of
Acuity’s work to assure the DoD that the work performed satisfied GAGAS. The COR
used the FAM section 650 as guidance to conduct contract oversight of Acuity and ensure
its compliance with GAGAS. The FAM section 650, “Using the Work of Others” states
that the auditor should develop an audit strategy and audit plan for reviewing and testing
the work done. The FAM section 650 also states that the auditor will assist the
contracting officer to ensure contractor compliance with the terms and conditions of the
contract.

Although the COR did not review all required deliverables obtained from Acuity
throughout the audit, some key documents were reviewed and concerns were identified
with Acuity’s work. For example, the COR provided
comments on documents received in the planning                 Although the COR did not
phase, including the Plan of Action & Milestones. In        review all required deliverables
addition, the COR expressed concerns that Acuity                  obtained from Acuity
failed to provide a detailed audit plan. FAM section         throughout the audit, some key
210, “Overview of the Planning Phase” states that            documents were reviewed and
the auditor must adequately plan the audit work and           concerns were identified with
the auditor should develop effective and efficient                   Acuity’s work.
ways to obtain the sufficient appropriate evidence
necessary to report on the federal entity’s financial statements. The COR stated that
Acuity did not provide a complete audit plan until February 2011, 4 months after the
beginning of the audit.

When the COR was asked why they did not execute the duties as outlined in the
performance work statement, the COR stated that the Director, Procurement and
Logistics Directorate (PLD) did not allow them to fully perform their duties. For
example, the Director, PLD, who was the contracting officer’s supervisor, directed the
COR:

    •   not to have any discussions with Acuity regarding the criteria that Acuity was
        contractually obligated to follow,


                                             15
     •   not to have the COR/Acuity In-Process Review unless Acuity requested the
         meeting,
     •   not to engage Acuity in any meetings,
     •   to continue to pick up workpapers from Acuity on a biweekly basis, and
     •   to address any issues to the Director, PLD, who would then decide if the issues
         should be addressed with Acuity.

By placing these restrictions on the COR, the Director, PLD prevented the COR from
completing essential steps that could have provided indications that Acuity was not
performing the audit in accordance with audit standards and was not in compliance with
the contract. The Director, PLD is not a certified public accountant, nor an experienced
auditor. In addition, the Director, PLD does not hold a contracting warrant. 8 Therefore,
the Director, PLD was not qualified to provide effective oversight of a financial statement
audit or determine what issues should be addressed by Acuity. However, the Director,
PLD limited the COR, a qualified individual, from doing the job they were assigned. The
Director, PLD stated that Acuity felt that the COR
was impeding their progress because they were              The Director, PLD limited the
spending excessive time helping the COR                     COR, a qualified individual,
understand the work they were doing and why they            from doing the job they were
were doing it. As the audit progressed, the COR did                  assigned.
not solicit comments from DISA management or
provide feedback to Acuity because the COR was instructed by the Director, PLD not to
have any discussions with Acuity or engage Acuity in any meetings. The COR obtained
copies of Acuity’s workpapers on a biweekly basis, but did not review the workpapers,
based on the direction provided by the Director, PLD. In addition, based on the direction
received from the Director, PLD, the COR did not provide comments or feedback to
Acuity’s draft audit report or the management representation letter as stated in the
performance work statement. Therefore, the COR accepted services performed by
Acuity without performing the appropriate level of review. As a result, the COR
approved payments to Acuity without ensuring they satisfied the contract requirements.

Audit Standards Require Reissuance of Auditor’s Report
AU Section 390, Consideration of Omitted Procedures, states that if an auditor concludes
that an omission of auditing procedures considered necessary at the time of the audit
impairs his present ability to support a previously expressed opinion, he should promptly
apply the omitted procedure or alternative procedures that would provide a satisfactory



8
  A warrant is the monetary authority delegated to the contracting officer. Contracting officers may bind
the Government only to the extent of the authority delegated to them. Contracting officers shall receive
clear instructions in writing from the appointing authority regarding the limits of their authority. However,
based on management comments received from the Vice Director, DISA, the Director, PLD, as the Head of
Contracting Activity, was delegated procurement authorities, including authority to enter into and
administer contracts from the Director, DISA.




                                                     16
basis for his opinion. Additionally, when the auditor becomes aware of facts that existed
at the date of the report that would have affected the report had he been aware of them,
the auditor should follow the provisions of section 561.05-09, Subsequent Discovery of
Facts.

AU Section 561, Subsequent Discovery of Facts, Chapter .05 states, in part, that when the
subsequently discovered information is found to be reliable, existed, and material to the
financial statements at the date of the auditor’s report, the auditor should take action to
prevent further reliance on the report. Chapters .06 through .08 go on to state that if the
effect on the subsequently discovered information can be promptly determined, the
auditor should notify users of the report that the auditor’s report must no longer be
associated with the financial statements. Notification can be provided through the web
page where the original report was published. Therefore, the auditor should withdraw the
original audit opinion and issue a revised auditor’s report. The reason for the revision
should be disclosed in the new auditor’s report.

DISA Contract Required Acuity Compliance with Generally
Accepted Government Auditing Standards
The DISA audit contract required that Acuity comply with standards applicable to
financial audits contained in the Government Auditing Standards issued by the
Comptroller General of the United States. Because Acuity did not have sufficient
evidence to issue an unqualified opinion on the FY 2011 DISA WCF Financial
Statements, its work did not comply with GAGAS. The Financial Acquisition Regulation
Clause 52.212-4 “Contract Terms and Conditions” states that the Government may seek
an equitable price reduction or adequate consideration for nonconforming services when
the contractor has not performed to contract standards.

DoD Manual 7600.07-M states that substandard
work by a non-Federal auditor may warrant                  Substandard work by a non-
referral for sanctions by the appropriate licensing        Federal auditor may warrant
authorities or suspension and disbarment by the            referral for sanctions by the
contracting authority. Furthermore, a referral                appropriate licensing
would be appropriate when work has significant            authorities or suspension and
inadequacies that make the audit so pervasively           disbarment   by the contracting
deficient that users cannot rely on it. If the                       authority.
circumstances justify a referral, the audit
organization shall forward the appropriate documentation and a memorandum with the
reason for the proposed referral action to the Assistant Inspector General for Audit Policy
& Oversight. Based on the deficiencies identified in this report, we provided a referral to
the Assistant Inspector General for Audit Policy & Oversight.

Conclusion
Acuity did not have sufficient evidence to issue an unqualified opinion on the FY 2011
DISA WCF Financial Statements. Furthermore, without performing procedures that
ensure compliance with GAGAS, FAM, and AICPA standards, the DoD does not have



                                            17
the assurance that the DISA FY 2011 Financial Statements were free of material
misstatements.

Additionally, AICPA AU Section 508, Reports on Audited Financial Statements, states
that if the auditors are unable to obtain sufficient audit evidence to support management’s
assertions about the nature of a matter involving an uncertainty and its presentation or
disclosure in the financial statements, the auditor should consider the need to express a
qualified opinion or to disclaim an opinion because of a scope limitation. Accordingly,
because Acuity did not have sufficient evidence to support its audit opinion, it should
withdraw their opinion, and users of the financial statements should be notified.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Defense Information Systems Agency:

       a. Review the actions of the Director, Procurement and Logistics
          Directorate to determine whether the director acted within the scope of
          her authority and take appropriate corrective action as necessary.

           Director, DISA Comments
           The Vice Director, DISA, responded for the director, agreed with the
           recommendation. He stated they are reviewing the actions of the Director,
           Procurement and Logistics Directorate and have noted that, based on the FAR,
           the Director, Procurement and Logistics Directorate, as the head of
           contracting activity, was delegated procurement authorities, including
           authority to enter into and administer contracts from the Director, DISA.
           Additionally, he stated that the FAR authorizes the contracting officer to
           specify the duties of the COR. Adjustment of the COR’s duties is within the
           scope of the contracting officer’s authority. Therefore, corrective action on the
           issue of authority is not necessary.

           Our Response
           The comments of the Vice Director, DISA were partially responsive. Based
           on their review, the Vice Director, DISA stated that corrective action was not
           necessary. The contracting officer has a responsibility to specify the duties of
           the COR and has the authority to adjust those duties as needed. However,
           DISA’s response did not fully address the actions of the Director, PLD.
           Although the Director, PLD was designated as the Head of Contracting
           Authority and has also been delegated “all procurement authorities of the
           Director of DISA,” the Director, PLD is not qualified to provide oversight
           over a financial statement audit or determine what issues should be addressed
           by Acuity. In cases where the contracting officer does not possess the
           technical competency needed to ensure compliance with audit standards, FAR
           1.602-2(c) states contracting officers shall request the advice of specialists in
           audit as appropriate. Yet, the Director, PLD did not seek the advice of the
           COR, who was the specialist in audit standards. Therefore, we ask that the


                                            18
         Director, DISA provide additional comments to the final report identifying
         appropriate corrective action to ensure that the Director, PLD does not impede
         on the contract oversight responsibilities on future financial statement audits.

      b. Ensure that the responsibilities of individuals performing contract
         oversight of financial statement audits are fulfilled by a qualified,
         General Schedule 0511 series Defense Information Systems Agency
         employee.

         Director, DISA Comments
         The Vice Director, DISA, agreed with the recommendation, and stated they
         will use employees, including General Schedule 0511 employees and other
         qualified employees, depending on the duties that need to be performed.

         Our Response
         The comments of the Vice Director, DISA were responsive, and no further
         comments are required.

      c. Seek a refund from Acuity Consulting for the audit services not provided
         on the Defense Information Systems Agency FY 2011 Working Capital
         Fund Financial Statements contract.

         Director, DISA Comments
         The Vice Director, DISA stated that they believed the IPA was fulfilling its
         legal contract requirements throughout the execution of the auditing service
         contract. DISA continues to review this matter. As part of the review, DISA
         will have to determine whether there is a basis to seek a refund given that
         performance of the contract is complete. DISA stated they will need the
         support of the Department if they determine there is a reason to seek a refund.

         Our Response
         The comments of the Vice Director, DISA were partially responsive.
         Although the Vice Director, DISA stated that they would continue to review
         this matter, DISA did not state whether they concur or nonconcur with our
         recommendation. Additionally, this report, which illustrates the results of our
         review, serves as the basis for DISA to seek a refund from Acuity. Therefore,
         we ask that DISA obtain advice from their General Counsel on the matter of
         seeking a refund and provide additional comments in response to the final
         report identifying concurrence or nonconcurrence and corrective action taken
         on the recommendation.

2. We recommend that the Managing Partner, Acuity Consulting:

      a. Withdraw the unqualified opinion on the audit of the Defense
         Information Systems Agency FY 2011 WCF Financial Statements.




                                          19
   Managing Partner, Acuity Comments
   The Managing Partner, Acuity stated they disagreed with the DoD OIG’s
   position because they had sufficient and appropriate evidence to provide a
   reasonable basis for an unqualified opinion on the DISA FY 2011 WCF
   Financial Statements. The Managing Partner, Acuity also stated they
   considered the risk of material misstatement associated with each material
   assertion, account, or class of transactions and obtained sufficient and
   appropriate evidence to reduce the risk of material misstatement to an
   acceptable level. The Managing Partner, Acuity stated the procedures
   performed complied with GAGAS, FAM, and AICPA standards.

   Our Response
   The comments of the Managing Partner, Acuity were nonresponsive. Our
   review as discussed in this report clearly demonstrates that Acuity did not
   have sufficient evidence to issue an unqualified opinion on DISA’s FY 2011
   WCF Financial Statements. After review of all evidence provided by Acuity,
   we determined that it did not:

       •   properly test the DISA Fund Balance with Treasury reconciliations,
       •   determine whether the undistributed accounts were free of material
           misstatements,
       •   adequately assess whether the deficiencies identified by DISA in its
           FBWT Memoranda for Record would have a material impact on the
           financial statements and Acuity’s opinion,
       •   perform adequate testing on PP&E, and
       •   state in its auditor’s report that the DISA financial statement
           disclosures were inadequate.

   We request the Managing Partner, Acuity reconsider their position on the
   recommendation regarding withdrawal of the unqualified opinion on the audit
   of the DISA FY 2011 Working Capital Fund Financial Statements.

b. Review the planned work on future audits and incorporate the
   appropriate audit steps into their audit plan to gather sufficient evidence
   to support their opinion.


   Managing Partner, Acuity Comments
   The Managing Partner, Acuity stated they are mindful of the importance of
   each plan being designed to meet the real-world issues of an audit. Where the
   purpose of the audit is, for example, to verify the factual existence of objects,
   then it may be appropriate to verify all external sources. When, as here, the
   purpose is to design a risk-based approach, then it is appropriate to exercise
   professional judgment as to what constitutes sufficient appropriate audit
   evidence by considering factors such as the significance of the potential
   misstatement in the relevant assertion and the likelihood of its having a


                                    20
material effect, individually or aggregated with other potential misstatements,
on the financial statements.

Our Response
The comments of the Managing Partner, Acuity were nonresponsive. The
comments did not contain concurrence or nonconcurrence, corrective actions,
and an estimated completion date. Therefore, we ask that Acuity provide
additional comments in response to the final report identifying concurrence or
nonconcurrence with our recommendation.




                                 21
Appendix A. Scope and Methodology
We conducted this post audit review from March 2012 through January 2013 in
accordance with GAGAS. Those standards require that we plan and perform the post
audit review to obtain sufficient appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions.

We interviewed and obtained documentation from the contracting officer, contracting
officer’s representative, and the Director of the Procurement and Logistics Directorate at
DISA Headquarters in Ft. Meade, MD to understand their roles and responsibilities for
the oversight of the DISA FY 2011 WCF Financial Statement audit. We interviewed
personnel from Acuity and obtained their working paper documentation from their audit
of the DISA FY 2011 WCF Financial Statement audit.

IPA Audit Procedures: We reviewed the FBWT, PP&E, and Accounts Payable line
items based on the value of the line items to the total of the balance sheet. We compared
the audit procedures performed by Acuity regarding FBWT, PP&E, and Accounts Payable to
the requirements in the GAGAS, FAM, and the AICPA standards. We reviewed Acuity’s
sampling procedures documented in the working papers for the FBWT, PP&E, and
Accounts Payable line items and its analysis to determine the adequacy of its
conclusions. We reviewed the performance work statement for the contract and the FY
2010 ending balance sheet accounts for FBWT, PP&E, and Accounts Payable.

Contract Oversight: We identified and reviewed guidance applicable to the COR
functions and responsibilities as prescribed in the DISA Acquisition Regulation
Supplement Section 1.6 and the performance work statement. We collected and reviewed
the COR files, specifically, the contract, memorandums, in process review write ups,
audit committee meeting minutes, and correspondence between DISA and Acuity staff to
review the oversight work that was performed and documented by the COR.

Use of Computer Processed Data
We used computer processed data to perform this post audit review. Specifically, we
used data developed by Acuity during its audit from DPAS and the Financial Accounting
Management Information System. We also relied on Excel spreadsheets, Word
documents, and Adobe portable document format files created by Acuity and DISA.

We compared data developed by Acuity to determine if it had sufficient documentation to
support conclusions reached in its auditor’s report. From these procedures, we concluded
that the data were sufficiently reliable for our audit purposes.

Use of Technical Assistance
The Quantitative Methods Division reviewed and tested the Independent Public
Accountant sampling methodology to evaluate the quality of the work and to determine
whether the projections derived from the sampling methodology were accurate and


                                            22
reasonable. We used subject matter experts to assist the team with the analysis of FBWT
and WCF property information.


Prior Coverage
During the last 5 years, the Department of Defense Office of Inspector General
(DoD OIG) has issued two reports discussing the oversight of contracted audit services.
Unrestricted DoD OIG reports can be accessed at http://www.dodig.mil/pubs.


DoD OIG
DoD OIG Report No. D-2012-116, “External Quality Control Review of the Defense
Information Systems Agency Audit Organization,” August 7, 2012

DoD OIG Report No. D-2009-6-003, “Key Strategies and Practices for Oversight of DoD
Contracted Audit Services,” March 3, 2009




                                           23
Appendix B. Acuity’s Comments on the
Finding and Our Response
Acuity’s Comments on Sufficient Audit Procedures to Support
Its Audit Opinion
The Managing Partner, Acuity stated they disagreed with the DoD OIG’s position
because they had sufficient and appropriate evidence to provide a reasonable basis for an
unqualified opinion on the DISA FY 2011 WCF Financial Statements. The Managing
Partner, Acuity also stated they considered the risk of material misstatement associated
with each material assertion, account, or class of transactions and obtained sufficient and
appropriate evidence to reduce the risk of material misstatement to an acceptable level.
The Managing Partner, Acuity stated the procedures performed complied with GAGAS,
FAM, and AICPA standards.

Our Response
AU Section 339 states that the auditor should prepare audit documentation that enables
an experienced auditor, having no previous connection to the audit, to understand:

   •   the nature, timing, and extent of auditing procedures performed to comply with
       Statements on Auditing Standards and applicable legal and regulatory
       requirements,
   •   the results of the audit procedures performed and the audit evidence obtained,
   •   the conclusions reached on significant matters, and
   •   that the accounting records agree or reconcile with the audited financial
       statements or other audited information.

However, Acuity did not have sufficient evidence to issue an unqualified opinion on
DISA’s FY 2011 WCF Financial Statements. After review of all evidence provided by
Acuity, we determined that it did not:

   •   properly test the DISA FBWT reconciliations,
   •   determine whether the undistributed accounts were free of material misstatements,
   •   adequately assess whether the deficiencies identified by DISA in its FBWT MFR
       would have a material impact on the financial statements and Acuity’s opinion,
   •   perform adequate testing on PP&E, and
   •   state in its auditor’s report that the DISA financial statement disclosures were
       inadequate.

For our responses to Acuity’s comments regarding FBWT and PP&E, please see pages
25 and 30, respectively.




                                            24
Acuity’s Comments on Properly Testing DISA FBWT
Reconciliations
The Managing Partner, Acuity stated they disagreed that their work was inadequate. The
Managing Partner, Acuity stated that their audit approach controlled the risk of material
misstatement to an acceptable level. The Managing Partner, Acuity also stated they
performed substantive audit procedures related to the financial statement reporting
process. Specifically, the Managing Partner, Acuity stated they:

   •   observed DISA’s FBWT reconciliation processes and reviewed them,
   •   performed an independent reconciliation of FBWT and the CMR, including
       detailed substantive and internal control testing of collection and disbursement
       transactions,
   •   performed a reconciliation of CMR cash activity to the AR(M) 1307 Report and
       Net Outlays on the Standard Form 133,
   •   examined and performed an independent reconciliation of the DFAS-Indianapolis
       SF 133 Reconciliation to the Cash Balance at the .05 level, which was from a
       reliable independent source, and
   •   reconciled the ending Defense Working Capital Fund FBWT balance to the
       balance reported on the Government Wide Accounting reports, another reliable
       independent source (that is, U.S. Department of Treasury).

In addition, the Managing Partner, Acuity stated they prepared supplemental summary
workpapers subsequent to the audit to more clearly document the work performed and tie
related work together to facilitate a review by an independent reviewer. On August 30,
2012, they provided these workpapers to the DoD OIG.

Our Response
AU Section 318 states that the auditor should use a combination of audit procedures to
obtain sufficient, appropriate audit evidence that controls are operating effectively. In
Acuity’s August 30, 2012 written response to the DoD OIG, the Managing Partner
acknowledged that audit principles require them to perform the reconciliations, identify
reconciling items, and obtain explanations for the reconciling items.

A proper Other Defense Organizations’ FBWT reconciliation should include the
following steps:

   •   retrieving the disbursement and collection detail processed by the disbursing
       offices to support the summary amounts on the CMR,
   •   reconciling the disbursements and collections supporting the CMR to the
       disbursements and collections reported in the accounting system; to have an
       adequate audit trail for the reconciliation of the Other Defense Organizations’
       FBWT accounts, it is essential to have both the transactions supporting the
       amounts on the CMR and the transactions supporting the amounts in the
       accounting system, and




                                            25
   •   researching, and if necessary resolving, any variances between the transactions
       supporting the CMR and the transactions in the accounting system.

Acuity has not provided any audit documentation throughout the course of the audit to
demonstrate that it had adequately performed and tested the DISA FBWT reconciliations.
Rather, in its August 30, 2012 response to the DoD OIG, it reiterated the work it had
done, which only included summary reconciliations and detail testing of disbursements
and collections. However, as already noted in this report, summary FBWT
reconciliations are not adequate to ensure controls over the FBWT account were effective
and that adjustments to the financial statements were supported. AU Section 326 states
that the auditor should obtain and evaluate evidential matter concerning the assertions in
such financial statements when forming its opinion on the financial statements. Without
properly testing the FBWT reconciliations, Acuity could not have ensured all transactions
that should have been recorded were recorded. As a result, Acuity could not have
validated DISA management’s completion assertion.

In the August 30, 2012 response to the DoD OIG, the Managing Partner, Acuity stated
that requesting and obtaining all of the transactions that comprise the CMR would be akin
to asking a commercial client to require their financial institution provide all the
transactions they process. However, DISA is required to reconcile its FBWT at the
transaction level on a regular and recurring basis and are also required to maintain the
detailed reconciliations for the auditors. Therefore, DISA should have these transactions
readily available. The comment provided by the Managing Partner, Acuity on August 30,
2012 indicates the fact that DISA is either not properly performing regular and recurring
FBWT reconciliations at the detail level or Acuity did not properly audit the account.
While Acuity has stated that it observed, reviewed, and tested the DISA FBWT
reconciliations, Acuity’s workpapers did not contain any documentation supporting this
assertion. Audit standards require the audit documentation to stand on its own.

AU Section 339 and GAGAS Section 4.19 state that audit documentation for financial
audits should contain sufficient information to enable an experienced auditor who has had
no previous connection with the audit to ascertain from the audit documentation the
evidence that supports the auditors’ significant judgments and conclusions. In the case of
Acuity’s work performed on the DISA FBWT reconciliations, the audit documentation
did not comply with these standards.


Acuity’s Comments on Determining Whether the Undistributed
Accounts Were Free of Material Misstatement
The Managing Partner, Acuity stated they disagreed with DoD OIG’s conclusion that
Acuity did not adequately follow up on the identified deficiencies. The Managing
Partner, Acuity stated that the report does not specifically articulate why DoD OIG
believes Acuity’s procedures might result in an unacceptable risk of material
misstatement. Specifically, the Managing Partner, Acuity stated they:




                                           26
   •   performed interim tests of the accounts payable undistributed accounts as part of
       baseline testing and throughout the year, including Q2 (CSD), Q3 (CSD and
       TSEAS), and Q4 (CSD and TSEAS), which identified DISA’s continuous
       improvement in analyzing and understanding the nature of the transactions in this
       account and the resulting ability to reduce the volume of transactions and value of
       accounts payable undistributed disbursements, and
   •   performed audit procedures that provided sufficient and appropriate evidence to
       provide a reasonable basis for the conclusion regarding accounts payable
       undistributed disbursements.

The Managing Partner, Acuity stated they performed an audit procedure to analyze the
accounts payable undistributed disbursement transaction activity in October 2011,
comparing to the transactions comprising the reported balance on September 30, 2011,
and determined the related transactions had cleared through the normal process. The
Managing Partner, Acuity stated it appears the DoD OIG did not consider the results of
the subsequently performed procedure or their conclusion that there was no risk of
material misstatement.

Our Response
During the audit of the DISA FY 2011 WCF Financial Statements, Acuity determined
that the balances in the CSD undistributed account, totaling $0.93 million, and the
TSEAS undistributed account, totaling $15.3 million, were both material deficiencies.
Specifically, Acuity reported that:

   •   DISA was unable to identify, explain, or clear specific transactions remaining in
       the pool of transactions categorized as timing differences,
   •   DISA did not consistently reconcile the undistributed disbursement account to
       identify and clear aged undistributed amounts, and
   •   DISA did not segregate the journal entry for unsupported undistributed amounts
       from the journal entry for the undistributed amounts that can be supported.

Acuity concluded that DISA management’s inability to effectively monitor transactions
in the undistributed disbursement account could lead to undetected accounting record
inaccuracies and potentially material misstatements to the financial statements. Despite
identifying the material deficiencies during the course of the audit, Acuity still issued an
unqualified opinion on the DISA FY 2011 WCF Financial Statements. In fact, only after
the DoD OIG informed Acuity that it did not perform sufficient auditing procedures on
the undistributed accounts did Acuity provide any additional workpapers on the
undistributed accounts that it reported as being materially deficient. However, Acuity did
not provide these additional workpapers on the undistributed accounts until August 30,
2012, 10 months after the unqualified opinion was rendered. AU Section 339 states that
the auditor should document significant findings or issues, actions taken to address them,
and the basis for the final conclusions reached. Acuity did not comply with the
aforementioned auditing standard by not following up on the deficiencies they identified
in the undistributed account during the FY 2011 DISA WCF financial statement audit in
a timely manner.


                                            27
While the work Acuity provided to the DoD OIG on August 30, 2012 is an improvement
from the procedures originally performed, DISA still could not identify $233,900 that
remained in the TSEAS undistributed account and $117,300 that remained in the CSD
undistributed accounts in October 2011. Therefore, even though Acuity states that these
amounts are below the materiality thresholds for the FBWT accounts, it is possible that
the amounts calculated by Acuity could include transactions with negative and positive
amounts. As a result, when the amounts are netted against one another, the totals would
be much smaller than if the amounts were calculated in the absolute form and
subsequently summed. A transaction level reconciliation would have identified each
undistributed transaction at the detail level allowing DISA to identify each transaction
that was disbursed or collected, but not yet recorded in the accounting system. If Acuity
had adequately performed and tested the DISA FBWT reconciliations, it could have
identified the transactions supporting the accounting adjustments at the time the
adjustments were performed.


Acuity’s Comments on Addressing Material Audit Trail
Deficiencies
The Managing Partner, Acuity stated although they fully assessed the MFR deficiencies,
they determined they did not clearly document all of their conclusions. The Managing
Partner, Acuity, stated that the audit report does not specifically articulate why DoD OIG
believes the FBWT MFR deficiencies would impact Acuity’s opinion. The Managing
Partner, Acuity stated they performed a risk-based and standards-based audit approach in
accordance with AICPA standards. Specifically, the Managing Partner, Acuity stated
they:

   •   conducted a thorough review of the documentation and data provided by DISA in
       support of the MFRs,
   •   determined the risk of material misstatement was sufficiently low,
   •   applied appropriate procedures to test internal controls on the FBWT
       reconciliation process and the collection and disbursement transactions, and
   •   evaluated the reasonableness of the estimated beginning balances.

The Managing Partner, Acuity stated the financial statements accompanied by the
auditor’s report for FY 2011 could have included an explanatory paragraph of emphasis
and more complete disclosures for FBWT. The Managing Partner, Acuity stated that
DISA made the appropriate corrections and revisions to the note disclosures to the FY
2012 comparative financial statements. Additionally, the Managing Partner, Acuity,
stated they included an explanatory paragraph in the auditor’s report, which was issued
November 15, 2012.

Our Response
Throughout its validation efforts in the four years leading up to the FY 2011 DISA WCF
Financial Statements audit, Acuity issued several Notifications of Findings and
Recommendations to DISA with respect to the FBWT account. The essence of these


                                            28
Notifications of Findings and Recommendations was that the ending FBWT balance as of
September 30, 2007 could not be supported because of insufficient audit evidence and
insufficient audit trails. After several discussions with the Defense Finance and
Accounting Service regarding the deficiencies, Acuity agreed with DISA that drafting an
MFR was a feasible course of action. The Managing Partner, Acuity acknowledged in
their response to the draft report that the original source documentation supporting
disbursements and collections prior to FY 2007 was still no longer available. In doing so,
the Managing Partner, Acuity recognized that DISA still did not have over $7.8 billion in
detailed transactions that were purged from the accounting system and also that DISA
performed approximately $379 million in unsupported adjustments that were posted to
the accounting records; amounts which continue to impact the DISA FBWT account.

Without the detail transactions to support these amounts, it would have been impossible
for Acuity to have fully validated the existence, completeness, and accuracy assertions of
the FBWT account. AU Section 318 states that if the auditor has not obtained sufficient
appropriate audit evidence as to a material financial statement assertion, the auditor
should attempt to obtain further audit evidence. If the auditor is unable to obtain
sufficient appropriate audit evidence, the auditor should express a qualified opinion or a
disclaimer of opinion. It is not clear to the DoD OIG how the MFR, an instrument DISA
used to document the billions of dollars in material deficiencies, would fix the audit
evidence and audit trail issues identified by Acuity in its Notifications of Findings and
Recommendations. As a result, Acuity should have expressed a qualified opinion or a
disclaimer of opinion. The Managing Partner, Acuity stated in their response that Acuity
“determined the risk of material misstatement was sufficiently low to provide a
reasonable basis for an unqualified opinion based on DISA FBWT (that is, collection and
disbursement) internal controls in place since FY 2007.” The FBWT reconciliation is a
key internal control over the FBWT account. Therefore, by not adequately testing the
FBWT reconciliations, as we have found to be the case, the Managing Partner, Acuity,
did not obtain sufficient appropriate evidence for an unqualified opinion.

Finally, the Managing Partner, Acuity, acknowledged that the financial statements
accompanied by the auditor’s report for FY 2011 could have included an explanatory
paragraph of emphasis and more complete disclosures for FBWT. However, Acuity did
not believe reissuance of the FY 2011 audited financial report was warranted and instead
ensured that DISA made the appropriate corrections and revisions to the note disclosures
in the FY 2012 comparative financial statements. Additionally, Acuity included an
explanatory paragraph in the FY 2012 audit report highlighting the issues discussed in the
MFR. However, this does not negate the fact that the deficiency should have been
included in the FY 2011 DISA WCF Financial Statements and in Acuity’s FY 2011 audit
report, because Acuity knew of this issue well before August 30, 2012. AU Section
561.06(a) states disclosure should consist of issuing, as soon as practicable, revised
financial statements and auditor’s report.




                                            29
Acuity’s Comments on Its Reliance on DISA Management
The Managing Partner, Acuity stated they acted in accordance with auditing standards
and were unbiased with respect to DISA management’s representations and exercised
professional skepticism. The Managing Partner, Acuity stated they provided additional
documentation to tie related work together to facilitate a review by an independent
auditor. The Managing Partner, Acuity requested that the DoD OIG consider these
supplemental workpapers in its present review and update the draft report to reflect
consideration of these documents.

Our Response
As already noted in our responses to the Managing Partner, Acuity, the DoD OIG
reviewed the supplemental audit documentation provided by Acuity and still does not
believe Acuity performed adequate work to ensure:

   •   DISA was performing regular and recurring FBWT reconciliations,
   •   DISA was able to identify and explain the undistributed accounts at the time the
       accounting adjustments were performed, leading to possible accounting record
       inaccuracies and potential material misstatements, and
   •   DISA’s MFRs pertaining to the FBWT would not affect the audit opinion
       rendered on the DISA FY 2011 Financial Statements.

GAGAS paragraph 4.03 requires an auditor to gain a sufficient understanding of internal
controls to plan the audit, and to obtain sufficient, competent, evidential matter to render
an opinion on the financial statements. By not performing adequate audit work on the
three issues above, Acuity did not gain the sufficient evidence to issue an unqualified
opinion on the DISA Financial Statements.


Acuity’s Comments on Completeness Testing of Property, Plant,
and Equipment
The Managing Partner, Acuity stated they performed risked based and standards based
procedures and quoted standards from AU Section 230, “Due Professional Care” on all
components of TSEAS PP&E. The Managing Partner, Acuity stated they:

   •   documented their inability to rely on DPAS for certain classes of TSEAS PP&E
       and noted that they would apply alternative procedures for testing completeness
       with respect to TSEAS network PP&E,
   •   determined appropriate alternative procedures, and
   •   tested the TSEAS pending assets process (including certain transactions to test
       controls) as well as the capital budget process.

The Managing Partner, Acuity stated their analysis as a whole and the procedures they
performed with respect to completeness reduced the risk to an acceptable level.
The Managing Partner, Acuity stated they prepared supplemental summary workpapers
subsequent to the audit to provide clarity with respect to their conclusions and to more


                                             30
fully reference and link the work performed throughout the audit to facilitate a review by
an independent reviewer. The Managing Partner, Acuity requested that the DoD OIG
consider these supplemental workpapers in its present review and update the draft report
to reflect consideration of these documents.

Our Response
AU Section 230.10 states while exercising due professional care, the auditor must plan
and perform the audit to obtain sufficient appropriate audit evidence so that audit risk will
be limited to a low level that is, in his professional judgment, appropriate for expressing
an opinion. Additionally GAGAS 3.32 through 3.37 states that professional judgment
includes exercising reasonable care and professional skepticism. The use of professional
judgment includes consideration about whether the audit team’s overall understanding is
sufficient to assess the audit risk. Furthermore, within the context of audit risk, an
integral part of the audit process is exercising professional judgment in determining the
sufficiency and appropriateness of evidence. Based on our review, we determined that
Acuity did not meet the standard of due professional care and professional judgment for
reasonable assurance to reduce the completeness assertion on PP&E because its
alternative procedures were inadequate. The alternative procedures were inadequate
because Acuity did not obtain sufficient appropriate evidence for the pending asset
reconciliation process and the asset valuation process to reduce the audit risk to a low
level.

Of the three alternative procedures performed by Acuity, the DoD OIG only agrees with
the inclusion of the test of budgetary controls as a reasonable method to reduce the risk
assessment of the completeness assertion from the highest level. The DoD OIG
concluded that the Pending Asset Reconciliation Process and asset valuation procedures
that Acuity conducted should not have been included in its justification to reduce the
completeness risk to an acceptable level. Therefore, the DoD OIG determined that
because only one of three alternative procedures were suitable to include in its risk
assessment in conjunction with its acknowledgement that during the validation it could
not rely on DPAS, Acuity should have assessed the risk related to material misstatement
of the completeness assertion at the high/moderate level and conducted detailed
completeness testing or issued an opinion other than unqualified opinion.

Specifically:

   •   Budget-to-Reporting Process—Acuity considered the work performed during its
       test on DISA’s budgetary controls in its assessment of risk with respect to the
       completeness assertion on TSEAS network assets. Acuity provided a summary of
       its control test. Acuity assessed the effectiveness of budgetary control activities
       as effective. Acuity matched the General Ledger Account
       Code 1790 to the Office of the Under Secretary of Defense budget allotment for
       TSEAS and provided documentation in its workpapers.

       Based on our review, we determined that this is an appropriate method of
       ensuring and documenting that the cost in the General Ledger Account Code 1790


                                             31
    agrees with the appropriation and is supported by source documents. Therefore,
    we agree with Acuity’s inclusion of its Budget-to-Reporting control testing as a
    suitable alternative to include in its justification to reduce the completeness risk
    assertion to an acceptable level.

•   Pending Asset Reconciliation Process—Acuity concluded that for baseline 2010
    testing, the process documented on the methodology of DISA’s preparation of
    monthly reconciliations is reasonable to rely on for transactions in the TSEAS
    PP&E account.

    Based on our review, we determined Acuity’s workpapers do not document its
    analysis of DISA’s reconciliation process and therefore do not meet the standards
    in AU Section 230 or GAGAS 3.36-3.37 for professional skepticism. Acuity did
    not discuss what procedures it used to determine the accuracy and validity of the
    reconciliations prepared and provided by DISA representatives. Acuity only
    refers to the methodology DISA used to perform the reconciliation. Acuity did
    not document its basis for concluding the reconciliation is reasonable or reliable.

    Therefore, we are unable to agree with Acuity’s conclusions regarding the
    reasonableness of the reconciliation process and do not agree with Acuity’s
    decision to include its review of the pending asset reconciliation process as a
    justification to reduce the completeness risk to an acceptable level.

•   Asset Valuation—Acuity used its asset valuation analysis to support its
    justification of reducing the completeness risk to an acceptable level. Acuity
    performed valuation testing on the high-dollar value items from the FY 2011
    year-end reconciliations. To conclude the valuations, Acuity performed attribute
    testing on sampled line items to determine whether a valid Military
    Interdepartmental Purchase Request exists, the contract amount reconciled,
    acquisition cost of the asset was supported, and whether the amount paid agrees to
    the total. Acuity concluded that, based on its testing, the valuations of the
    program lines were reasonable.

    Therefore, Acuity concluded its valuation work could be relied upon to support its
    justification to reduce the risk with respect to the completeness assertion
    sufficiently low to conclude that the TSEAS PP&E financial statement line item
    was not materially misstated due to unrecorded assets.

    Based on our review, Acuity conducted attribute testing on five 1790 General
    Ledger Account Code’s and one 1791 General Ledger Account Code. Acuity
    found no exceptions with any of the samples. However, Acuity did not provide
    any source documentation to substantiate the results of its testing. AU Section
    339.06 states that abstracts or copies of the entity’s records should be included as
    part of the audit documentation if they are needed to enable an experienced
    auditor to understand the work performed and conclusions reached. Because
    Acuity did not include any source documentation in its workpapers to support its


                                         32
       conclusions, its workpapers did not meet the standards in AU section 339 for
       audit documentation. GAGAS, Paragraph 4.19(c), states that audit documentation
       for financial audits performed in accordance with GAGAS should contain
       sufficient information to enable an experienced auditor who has had no previous
       connection with the audit to ascertain from the audit documentation the evidence
       that supports the auditors’ significant judgments and conclusions. Additionally,
       the U.S. Government Accountability Office and the President’s Council on
       Integrity and Efficiency (GAO/PCIE) FAM 290 states that the auditor must
       prepare audit documentation in sufficient detail to provide a clear understanding
       of the work performed (including the nature, extent, and timing and results of
       audit procedures performed), the audit evidence obtained and its source, and the
       conclusions reached. Acuity added comment boxes referring to the lack of
       documentation to support the “Y” or “yes” for their response to the attribute being
       tested.

       Therefore, we determined that because Acuity did not include sufficient
       documentation to support the results of its analysis, we could not agree with its
       inclusion of its asset valuation testing to support its justification of reducing the
       completeness risk to an acceptable level. We then researched Acuity’s FY 2008
       and FY 2009 TeamMate validation files to determine whether either of these files
       contained source documentation for the assets. The validation TeamMate files
       were replicated versions that only contained activated FBWT related workpapers,
       that is, all of the workpapers related to PP&E were inaccessible in the TeamMate
       files given to the DoD OIG.

       On August 30, 2012, Acuity provided additional supplemental summary
       workpapers, dated August 29, 2012, that pertained to the FY 2011 audit. The
       Managing Partner, Acuity stated that it did not appear that this information was
       considered in our draft report. However, on page 11 through 12 of our draft
       report, we discuss our review of Acuity’s alternative procedures, and although not
       explicitly stated, Acuity’s supplemental summary workpapers were included in
       our review.


Acuity’s Comments on DISA’s Financial Statement Footnote
Disclosures
The Managing Partner, Acuity stated that the financial statement accompanied by the
auditor’s report for FY 2011 could have included more complete disclosures for PP&E.
The Managing Partner, Acuity quoted AU Section 561 regarding allowance for revisions
to issued financial statements. The Managing Partner, Acuity also stated they ensured
that DISA made the appropriate corrections and revisions to the note disclosures to the
FY 2012 comparative financial statements and they included an explanatory paragraph in
the audit report, which was issued November 15, 2012. The Managing Partner, Acuity
further stated that as of August 30, 2012, when they discussed these concerns with the
DoD OIG, there was no need to reissue the FY 2011 audited financial report because the
issuance of the audited financial report for FY 2012 was imminent.


                                            33
Our Response
It is our opinion that Acuity inappropriately applied the standards set forth in AU section
561.06(b), Subsequent Discovery of Facts Existing at Date of Report, because Acuity
was aware of the issues surrounding DISA’s financial statements well before the FY
2012 report becoming imminent. We discuss this topic in more detail in the “Our
Response” section of “Acuity’s Comments on Reissuance of Auditor’s Report.” We
maintain, however, that Acuity should have applied AU Section 561.06(a) and had the
FY 2011 financial statements and accompanying auditor’s report re-issued.

GAGAS paragraph 3.60 states that auditors must use professional judgment in
performing audits and in reporting the results. Although Acuity ensured disclosures were
made in the FY 2012 financial statement and auditor’s report, it did not provide a
response as to why it did not follow AU Section 561.06(a), since it knew of this issue
long before the imminent issuance of the FY2012 financial statements and accompanying
auditor’s report.

AU Section 700.17 states, “The auditor's evaluation about whether the financial
statements achieve fair presentation should also include consideration of the following:
Whether the financial statements, including the related notes, represent the underlying
transactions and events in a manner that achieves fair presentation.” Additionally, AU
Section 508.10 “Reports on Audited Financial Statements” requires the auditor to add an
explanatory language paragraph to the auditor’s standard report for when a designated
accounting standard setter requires information to accompany an entity’s basic financial
statements. The fact that Acuity did not disclose this issue in the year the situation
existed and the fact that they did not provide an explanation of their decision of why the
footnote disclosures were not necessary, calls into question Acuity’s use of professional
judgment in reporting of the results and ultimately the reliability of their audit opinion on
the FY 2011 financial statements. Therefore, Acuity did not comply with the standards
set forth in AU Section 508, AU Section 561.06(a), AU Section 700.17, GAGAS3.32 and
GAGAS 3.60.


Acuity’s Comments on DISA’s Informative Disclosures
The Managing Partner, Acuity stated that DoD Financial Management Regulation is not
relevant as a standard in discussing the financial statement audit conducted by Acuity and
is neither a part of the U.S. Generally Accepted Accounting Principles hierarchy or
professional auditing standards. The Managing Partner, Acuity stated that the financial
statement accompanied by the auditor’s report for FY 2011 could have included more
complete disclosures for PP&E. The Audit Partner, Acuity quoted AU 561 regarding
allowance for revisions to issued financial statements. The Audit Partner, Acuity also
stated they ensured that DISA made the appropriate corrections and revisions to the note
disclosures to the FY 2012 comparative financial statements and they included an
explanatory paragraph in the audit report, which was issued November 15, 2012. The
Audit Partner, Acuity stated that as of August 30, 2012, when they discussed these



                                             34
concerns with the DoD OIG, there was no need to reissue the FY 2011 audited financial
report because the issuance of the audited financial report for FY 2012 was imminent.

Our Response
The Federal Accounting Standards Advisory Board hierarchy of accounting principles
and standards are used to promulgate DoD accounting and financial reporting policy
within the DoD FMR. While it is true that the DoD FMR is not a standard for auditors,
Acuity should have been aware of the responsibility of DISA to prepare its financial
statements in accordance with the DoD FMR. Additionally, the GAO/PCIE FAM 245
requires auditors to design relevant compliance related audit procedures to identify the
significant provisions of the laws and regulations.

The DoD FMR directs statutory and regulatory financial management requirements for
working capital fund activities of the DoD. DISA is required to present financial
information that not only complies with Generally Accepted Accounting Principles, but
also complies with the requirements of the DoD FMR. Because the grouped asset cost
method and the activation and depreciation method deviates from the policy for recording
PP&E in the DoD FMR, DISA was required to provide explanatory language about its
method in the notes to the financial statements or the Management’s Discussion and
Analysis section of the financial statements. Because DISA did not disclose this
information, the FY 2011 financial statements did not comply with the Office of
Management and Budget CircularA-136, 2010 revision, section II.4.9.1 and the Chief
Financial Officer’s Act of 1990, 31 U.S.C. Section 902 as required by law. Furthermore,
AU Section 508.10, “Reports on Audited Financial Statements” requires the auditor to
add an explanatory language paragraph to the auditor’s standard report when a designated
accounting standard setter requires information to accompany an entity’s basic financial
statements.

It is our opinion that Acuity inappropriately applied the standards set forth in AU section
561, Subsequent Discovery of Facts Existing at the Date of Report, because Acuity was
aware of the issues surrounding DISA’s financial statements prior to FY 2012 report
becoming imminent. We discuss this topic in more detail in the “Our Response” section
of “Acuity’s Comments on Reissuance of Auditor’s Report.”


Acuity’s Comments on DISA Not Disclosing the Grouped Asset
Cost Method
The Managing Partner, Acuity stated that the financial statement accompanied by the
auditor’s report for FY 2011 could have included more complete disclosures for
PP&E. The Managing Partner, Acuity quoted AU Section 561 regarding the allowance
for subsequent disclosures to issued financial statements. The Managing Partner, Acuity
also stated that they ensured DISA made the appropriate corrections and revisions to the
note disclosures to the FY 2012 comparative financial statements and they included an
explanatory paragraph in the audit report, which was issued November 15, 2012. The
Managing Partner, Acuity stated that as of August 30, 2012, when they discussed
concerns with the DoD OIG, no need existed to reissue the FY 2011 audited financial


                                            35
report because the issuance of the audited financial report for FY 2012 was imminent.
The Managing Partner, Acuity also stated that DoD Financial Management Regulation is
not relevant as a standard in discussing the financial statement audit conducted by Acuity
and is neither a part of the U.S. Generally Accepted Accounting Principles hierarchy or
professional auditing standards.

Our Response
DISA did not disclose the grouped asset cost method in FY 2011. The DoD FMR directs
statutory and regulatory financial management requirements for working capital fund
activities of the DoD. DISA is required to present financial information that not only
complies with Generally Accepted Accounting Principles but that also complies with the
requirements of the DoD FMR. Because the grouped asset cost method deviates from the
policy for recording PP&E in the DoD FMR, DISA was required to provide explanatory
language about its method in the notes to the financial statements and or the
Management’s Discussion and Analysis section of the financial statements. Because
DISA did not disclose this information, the FY 2011 financial statements did not comply
with the Office of Management and Budget Circular A-136, 2010 revision, section
II.4.9.1 and the Chief Financial Officer’s Act of 1990, 31 U.S.C. Section 902 as required
by law.

The Federal Accounting Standards Advisory Board hierarchy of accounting principles
and standards are used to promulgate DoD accounting and financial reporting policy
within the DoD FMR. While it is true that the DoD FMR is not a standard for auditors,
Acuity should have been aware of the responsibility of DISA to prepare its financial
statements in accordance with the DoD FMR. Additionally, the GAO/PCIE FAM 245
requires auditors to design relevant compliance related audit procedures to identify the
significant provisions of the laws and regulations.


Acuity’s Comments on DISA Not Disclosing the Grouped Asset
Activation and Depreciation Method
The Managing Partner, Acuity stated that the financial statement accompanied by the
auditor’s report for FY 2011 could have included more complete disclosures for
PP&E. The Managing Partner, Acuity quoted AU Section 561 regarding the allowance
for subsequent disclosures to issued financial statements. The Managing Partner, Acuity
also stated they ensured that DISA made the appropriate corrections and revisions to the
note disclosures to the FY 2012 comparative financial statements and they included an
explanatory paragraph in the audit report, which was issued November 15, 2012. The
Managing Partner, Acuity stated that as of August 30, 2012, when Acuity discussed
concerns with the DoD OIG, no need existed to reissue the FY 2011 audited financial
report because the issuance of the audited financial report for FY 2012 was imminent.
The Managing Partner, Acuity also stated that DoD Financial Management Regulation is
not relevant as a standard in discussing the financial statement audit conducted by Acuity
and is neither a part of the U.S. Generally Accepted Accounting Principles hierarchy or
professional auditing standards.



                                            36
Our Response
DISA did not disclose the grouped asset activation and depreciation method in FY 2011.
The DoD FMR directs statutory and regulatory financial management requirements for
working capital fund activities of the DoD. DISA is required to present financial
information that not only complies with Generally Accepted Accounting Principles but
that also complies with the requirements of the DoD FMR. Because the grouped asset
activation and depreciation method deviates from the policy for recording PP&E in the
DoD FMR, DISA was required to provide explanatory language about its method in the
notes to the financial statements and or the Management’s Discussion and Analysis
section of the financial statements. Because DISA did not disclose this information, the
FY 2011 financial statements did not comply with the Office of Management and Budget
Circular A-136, 2010 revision, section II.4.9.1 and the Chief Financial Officer’s Act of
1990, 31 U.S.C. Section 902 as required by law.

The Federal Accounting Standards Advisory Board hierarchy of accounting principles
and standards are used to promulgate DoD accounting and financial reporting policy
within the DoD FMR. While true the DoD FMR is not a standard for auditors, Acuity
should have been aware of the responsibility of DISA to prepare its financial statements
in accordance with the DoD FMR. The GAO/PCIE FAM 245 requires auditors to design
relevant compliance related audit procedures to identify the significant provisions of the
laws and regulations.


Acuity’s Comments on Contracting Officer’s Representative’s
Key Oversight Duties
The Managing Partner, Acuity stated the DoD OIG report is inaccurate based on the
following reasons:

   •   The COR reviewed very little of the work performed and provided essentially no
       feedback beyond the Plan of Action and Milestones.
   •   The audit plan was not a contract deliverable, but was provided to the COR within
       2 months of the request.
   •   The timing and delivery of the audit plan was consistent with the timeline
       presented in the draft report and was representative of typical audit planning for a
       first-year audit of a client of this complexity and size.

Our Response
We have addressed our concerns about the contract oversight performed by the COR with
DISA management. However, the Managing Partner, Acuity stated that the audit plan
was not a contract deliverable and was delivered within 2 months of the request.
GAO/PCIE FAM section 210, “Overview of the Planning Phase” states that the auditor
must adequately plan the audit work and the auditor should develop effective and
efficient ways to obtain the sufficient appropriate evidence necessary to report on the
federal entity’s financial statements. The Managing Partner, Acuity stated that the audit
plan was provided to the COR within 2 months of the request, yet, Acuity’s audit


                                            37
documentation shows that their draft audit plan is dated February 11, 2011. Additionally,
the COR provided us with the audit plan received from Acuity, also dated February 11,
2011, which is 4 months after the contract was awarded.


Acuity’s Comments on Reissuance of Auditor’s Report
The Managing Partner, Acuity stated they disagree that the audit report requires
reissuance. The Managing Partner, Acuity stated that the DoD OIG’s application of AU
Section 561, Subsequent Discovery of Facts, is incorrect and that the correct standard to
apply first is AU Section 390, Consideration of Omitted Procedures After the Report
Date. The Managing Partner, Acuity concluded there was no impairment to their ability
to support and provide a satisfactory basis for their previously expressed opinion, but the
issue regarding complete note disclosures for FBWT and PP&E could have affected the
FY 2011 report.

The Managing Partner, Acuity stated on August 30, 2012, this information was provided
to the DoD OIG, but evidently was not considered in developing their draft report. The
Managing Partner, Acuity stated they ensured that DISA made the appropriate
corrections and revisions to the note disclosures to the FY 2012 comparative financial
statements and included an explanatory paragraph in the audit report, which was issued
November 15, 2012. In addition, the Managing Partner, Acuity stated since this is within
90 days of the issuance of the FY 2012 audited financial report, reissuance of the
FY 2011 financial audit report is neither necessary nor appropriate.

Our Response
As identified in our draft report on page 16, we discussed the application of AU Section
390, Consideration of Omitted Procedures, prior to our discussion of AU Section 561,
Subsequent Discovery of Facts Existing at Date of Report. AU Section 390 states,
“When the auditor concludes that an auditing procedure considered necessary at the time
of the audit in the circumstances then existing was omitted from his audit of financial
statements, he should assess the importance of the omitted procedures to his present
ability to support his previously expressed opinion regarding those financial statements
taken as a whole.”

AU Section 390 further states, “When, as a result of the subsequent application of the
omitted or alternative procedures, the auditor becomes aware that facts regarding the
financial statements existed at the date of his report that would have affected that report
had he been aware of them, he should be guided by the provisions of
AU Section 561.05-.09, Subsequent Discovery of Facts Existing at the Date of the
Auditor’s Report.” Acuity was aware of the issues surrounding DISA’s financial
statements we identified in our report long before imminent issuance of the FY 2012
financial statements and accompanying auditor’s report. Therefore, Acuity’s application
of AU Section 561.06(b) does not apply and AU Section 561.06(a) does apply.

The Managing Partner, Acuity stated that after review of AU Section 390, they concluded
there was no impairment to support their expressed opinion, but the issue regarding


                                            38
complete note disclosures for FBWT and PP&E could have affected the FY 2011 report.
The Managing Partner, Acuity stated they ensured that DISA made the appropriate
corrections and revisions to the note disclosures to the FY 2012 comparative financial
statements and included an explanatory paragraph in the audit report, which was issued
November 15, 2012. After review of all evidence provided by Acuity, we concluded that
procedures omitted by Acuity in performing the DISA FY 2011 financial statement audit,
impairs its ability to support its previously expressed opinion regarding the financial
statements taken as a whole.


Acuity’s Comments on DISA Contract Required Acuity
Compliance with Government Auditing Standards
The Managing Partner, Acuity stated they disagree that Acuity did not comply with
GAGAS. The Managing Partner, Acuity stated they designed a risk based audit approach
in accordance with audit standards including, AU 318 Performing Audit Procedures in
Response to Assessed Risk; AU326 Audit Evidence, AU 339 Audit Documentation, and
AU 508 Reports on Audited Financial Statements. The Managing Partner also stated that
they obtained sufficient and appropriate evidence to support their conclusion and provide
reasonable bases for their opinion. The Managing Partner, Acuity stated they considered
the effectiveness of management’s responses and controls to address the risks. The
Managing Partner, Acuity also stated they appropriately documented their understanding,
and their work followed appropriate standards, including GAGAS, GAO/PCIE FAM, and
AICPA standards.

Our Response
The DoD OIG has cited numerous examples throughout our report where Acuity did not
comply with GAGAS. Specifically, Acuity did not comply with GAGAS, Paragraph
4.19(c), because they:

   •   did not include the validation of the CMR in its audit documentation, which
       would have required them to obtain and document all of the detail transactions
       supporting the summary amounts on the CMR,
   •   did not explicitly discuss the risk, materiality, and impact of the MFRs on the
       financial statements, and
   •   did not provide supporting documentation for the $37.7 million TSEAS assets
       tested to show how the auditor reached their conclusions.

Acuity did not comply with GAGAS paragraph 4.03 because they:
   • only performed summary reconciliations of the FBWT account and did not
       adequately test to ensure DISA was performing regular and recurring FBWT
       reconciliations at the detailed level,
   • accepted a response from DISA regarding the deficiencies in the undistributed
       accounts, but did not perform any follow up work on the account to ensure the
       undistributed accounts could be supported, and




                                           39
   •   accepted the deficiencies DISA reported in the MFRs without performing
       adequate auditing procedures to determine if the deficiencies would have a
       material impact on the FBWT account.

Acuity did not comply with GAGAS chapter 5.03(c) because they did not state in their
auditor’s report that the DISA financial statement footnote disclosures were inadequate.
Additionally, the FAM section 290 requires the auditor to prepare audit documentation in
sufficient detail to provide a clear understanding of the work performed (including the
nature, extent, and timing and results of audit procedures performed), the audit evidence
obtained and its source, and the conclusions reached.

AU Section 326.20 “Procedures for Obtaining Audit Evidence” states that the auditor
should obtain audit evidence to draw reasonable conclusions on which to base the audit
opinion by performing audit procedures to detect material misstatements at the relevant
assertion level. Audit procedures performed for this purpose are referred to as
substantive procedures and include tests of details of classes of transactions, account
balances, and disclosures, and substantive analytical procedures. The auditor must
perform risk assessment procedures to provide a satisfactory basis for the assessment of
risks at the financial statement and relevant assertion levels. Risk assessment procedures
by themselves do not provide sufficient appropriate audit evidence on which to base the
audit opinion and must be supplemented by further audit procedures in the form of tests
of controls, when relevant or necessary and substantive procedures.

Acuity did not subject the FBWT line item to adequate auditing procedures. Specifically,
Acuity did not properly test the DISA FBWT reconciliations. AU Section 326.04 states
that the auditor should obtain audit evidence by testing the accounting records through
analysis and review, and reperforming procedures followed in the financial reporting
process and reconciling related types of the same information. Additionally, AU Section
326.06, “Sufficient Appropriate Audit Evidence” states that audit evidence is more
reliable when it is obtained from knowledgeable independent sources outside the entity
and that corroborating information obtained from a source independent of the entity may
increase the assurance the auditor obtains from management representations.

A proper FBWT reconciliation would require that DISA retrieve the disbursement and
collection transactions processed by the disbursing offices to: support the summary
amounts on the CMR; reconcile the disbursements and collections supporting the CMR to
the disbursements and collections reported in the accounting system; and research, and if
necessary, resolve any variances between the transactions supporting the CMR and the
transactions in the accounting system. However, Acuity only:

   •   obtained the detail transactions recorded in the accounting system (but did not
       obtain the detail transactions supporting the CMR), and
   •   summed the transactions in the accounting system and compared that summary
       amount to the summary amount supporting the CMR




                                            40
Acuity also acknowledged that it did not include the validation of the CMR in its audit
documentation, which would have required it to obtain and document all of the detail
transactions supporting the summary amounts on the CMR. Because Acuity did not
obtain and document the detail transactions supporting the summary amounts within the
CMR, Acuity failed to adhere to the standards in AU Section 326.

In addition AU Section 339 “Audit Documentation” requires the auditor to prepare audit
documentation in connection with each engagement in sufficient detail to provide a clear
understanding of the work performed (including the nature, timing, extent, and results of
audit procedures performed), the audit evidence obtained and its source, and the
conclusions reached.

Acuity selected 6 high-dollar value assets valued at $37.7 million, out of 31 TSEAS
assets valued at $49.3 million in the PP&E 1790 and 1791 general ledger account
balances. Of the six assets tested, the auditor found no discrepancies with the samples,
but provided no supporting documentation to show how the auditor reached its
conclusions. Therefore, Acuity failed to adhere to the standards in AU Section 339.

Additionally, AU Section 508.10 “Reports on Audited Financial Statements” requires the
auditor to add an explanatory paragraph to the auditor’s standard report when a
designated accounting standard setter requires information to accompany the entity's
basic financial statements, while not affecting the auditor’s unqualified opinion on the
financial statements. Because Acuity was aware that DISA did not disclose the group
asset cost and activation and depreciation method and did not disclose this information in
an explanatory language paragraph in the report, Acuity did not comply with the
standards set forth in AU section 508.




                                            41
Defense Information Systems Agency Comments




                Click to add JPEG file




                                 42
Click to add JPEG file




                 43
Click to add JPEG file




                 44
Acuity Consulting, Inc. Comments




                 Click to add JPEG file




                                   45
Click to add JPEG file




                 46
Click to add JPEG file




                 47
Click to add JPEG file




                 48
Click to add JPEG file




                 49
Click to add JPEG file




                 50
Click to add JPEG file




                 51
Click to add JPEG file




                 52
Click to add JPEG file




                 53
Click to add JPEG file




                 54
Click to add JPEG file




                 55
Click to add JPEG file




                 56
Click to add JPEG file




                 57
Click to add JPEG file




                 58
Click to add JPEG file




                 59
Click to add JPEG file




                 60
